audit report



Return to the USDOJ/OIG Home Page



Weed and Seed Grants
Administered by the
Chicago Housing Authority
Chicago, Illinois
GR-50-99-011
July 29, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General (OIG), Audit Division, has completed an audit of three Weed and Seed Grants administered by the Chicago Housing Authority (CHA).  The audit was conducted in response to concerns raised by the Office of Justice Programs (OJP) in connection with funds awarded to CHA.  Between 
May 26, 1992, and June 30, 1998, CHA was awarded a total of $2,397,300.  The purpose of the grants was to weed out crime from targeted neighborhoods and seed them with a wide range of crime and drug prevention programs and human service agency resources to prevent crime from recurring. 

An OIG audit report covering the initial 1992 Weed and Seed grant through May 31, 1994, was issued in September 1994.  The report cited weaknesses in reporting, cash management, financial monitoring of sub-grantees, and verification of Community Police Officer salary costs.  Therefore, our audit concentrated on the period of June 1, 1994, through June 30, 1998, and covered $1,106,878.  The remaining $1,290,422 was scrutinized under the previous OIG audit.

	We tested the accuracy and reliability of the CHA's accounting records by reviewing the general ledger and evaluating expenditures to determine if they were allowable and reasonable.  In brief, our audit revealed that financial and managerial controls over funds were not adequate to ensure expenditures charged to the grants were properly accounted for, and transactions were accurately recorded and supported.  As a result, expenditures of $531,618 included unsupported and unallowable costs.
		
	In addition, CHA has not been able to obtain $339,139 in remaining grant funds, because it did not submit documentation for budget changes as required.  Furthermore, sub-grantee monitoring policies recommended in the prior OIG audit were not implemented timely, and Financial Status Reports were neither timely nor supported.

The details of our audit are contained in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in 
Appendix II.